                     AUDIT REPORT

                  Audit of NRC’s License Renewal Program

                      OIG-07-A-15     September 6, 2007




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                          September 6, 2007




MEMORANDUM TO:              Luis A. Reyes
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S LICENSE RENEWAL PROGRAM
                            (OIG-07-A-15)


This report presents the results of the subject audit. The formal comments provided by
your office on July 6, 2007, are presented in their entirety as Appendix E to this report.
Appendix F contains OIG’s response.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG follow-up as stated in Management Directive 6.1.

If you have any questions or wish to discuss other issues, please call Tony Lipuma at
415-5910 or me at 415-5915.

Attachment: As stated
Electronic Distribution

Frank P. Gillespie, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
William M. McCabe, Chief Financial Officer
Margaret M. Doane, Acting Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
William F. Kane, Deputy Executive Director for Reactor
 and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Waste, Research,
 State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director for Information Services
 and Chief Information Officer, OEDO
Vonna L. Ordaz, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Cynthia A. Carpenter, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
 and Environmental Management Programs
Guy P. Caputo, Director, Office of Investigations
Edward T. Baker, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
R. William Borchardt, Director, Office of New Reactors
Michael F. Weber, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
                                                                  Audit of NRC’s License Renewal Program



I.       EXECUTIVE SUMMARY

                    BACKGROUND

                    U.S. Nuclear Regulatory Commission (NRC) regulations limit the
                    term of an initial nuclear reactor operating license to 40 years.
                    However, the regulations also allow a license to be renewed for an
                    additional 20 years given that the initial term was based on
                    economic and anti-trust considerations, not technical limitations.
                    Through technical research, NRC concluded that many aging
                    phenomena are readily managed and therefore should not preclude
                    renewal of a reactor license.

                    NRC published requirements for license renewal in the Code of
                    Federal Regulations (CFR). 10 CFR Part 541 addresses operating
                    safety issues ─ the main focus of this Office of the Inspector
                    General (OIG) report. Part 54 was amended in 1995 to concentrate
                    NRC’s reviews on how licensees manage adverse effects of aging
                    to provide reasonable assurance that plants will continue to operate
                    in accordance with their current licensing basis for the period of
                    extended operations.

                    PURPOSE

                    The purpose of OIG’s audit was to determine the effectiveness of
                    NRC’s license renewal safety reviews.

                    RESULTS IN BRIEF

                    Overall, NRC has developed a comprehensive license renewal
                    process to evaluate applications for extended periods of operation.
                    However, OIG identified areas where improvements would enhance
                    program operations. Specifically,




1
    10 CFR Part 54, Requirements for Renewal of Operating Licenses for Nuclear Power Plants.

                                                      i
                                     Audit of NRC’s License Renewal Program



¾ License renewal reporting efforts need improvements

      o Reporting issues exist because the agency has not fully
        established report-writing standards or a report quality
        assurance process. As a result, those who read the
        reports could conclude that regulatory decisions are not
        adequately reviewed and documented.

¾ Guidance for removing licensee documents from audit sites
  could be clarified

      o Inconsistencies regarding removal of documents result
        from audit teams being prohibited by their management
        from removing licensee-supplied documents from audit
        sites, whereas the inspectors do keep such documents to
        assist in report writing. As a result, it is more difficult for
        audit team members to write their reports without using
        workaround tools.

¾ Consistent evaluation of operating experience would improve
  NRC reviews

      o Although expected to, audit team members do not
        consistently review or independently verify licensee-
        supplied operating experience information because
        program managers have not established requirements
        and controls to standardize the conduct and depth of
        such reviews. Consequently, license renewal auditors
        may not have adequate assurances that relevant
        operating experience was captured in the licensee’s
        renewal application for NRC’s consideration.

¾ More attention is needed to planning for post-renewal
  inspections

      o Post-renewal inspections are considered vital to ensure
        that licensees adhered to commitments made for license
        renewal. However, the agency has only recently focused
        its attention on developing and overseeing details
        associated with these inspections. Inadequate planning
        increases the risk that: licensees could enter into the
        extended period of operation without being in full
        compliance with license renewal terms; inspections will
                           ii
                                    Audit of NRC’s License Renewal Program



          be inconsistently implemented; and inspection and
          technical support resources will be unavailable when
          needed.

¾ License renewal issues need evaluation for backfit application

      o When NRC imposes new staff positions resulting in new
        review standards, a documented justification is required
        pursuant to the backfit rule. However, new license
        renewal review standards have not followed NRC’s
        backfit policy because NRC does not have a mechanism
        or methodology to trigger such a backfit review.
        Consequently, the use of different review standards
        without a backfit justification may result in several
        management challenges.

RECOMMENDATIONS

This report makes eight recommendations to help NRC improve the
effectiveness of its License Renewal Program. Seven of the
recommendations are addressed to the Executive Director for
Operations. In consideration of the agency’s formal comments
concerning the applicability of the backfit rule to license renewal
applicants, the last recommendation is directed to the Commission.
A Consolidated List of Recommendations appears in Section IV.

OIG ANALYSIS OF AGENCY COMMENTS

On May 8, 2007, OIG issued its draft report to the Executive
Director for Operations. On July 6, 2007, the Deputy Executive
Director for Reactor Programs provided a formal response to this
report in which the agency disagreed with OIG’s finding regarding
applicability of the backfit rule to license renewal applicants. The
agency’s transmittal letter and specific comments on this report are
included in their entirety as Appendix E.

This final report incorporates revisions made, where appropriate, as
a result of the subsequent meetings with staff and the agency’s
written comments. Appendix F contains OIG’s analysis of the
agency’s formal response.




                          iii
                          Audit of NRC’s License Renewal Program




[Page intentionally left blank.]




               iv
                                        Audit of NRC’s License Renewal Program



ABBREVIATIONS AND ACRONYMS

       ACRS    Advisory Committee on Reactor Safeguards

       ADAMS   Agencywide Documents Access and Management
               System

       CFR     Code of Federal Regulations

       DLR     Division of License Renewal

       FY      fiscal year

       GALL    Generic Aging Lessons Learned

       ISG     Interim Staff Guidance

       LRA     license renewal application

       NEI     Nuclear Energy Institute

       NRC     Nuclear Regulatory Commission

       NRR     Office of Nuclear Reactor Regulation

       OGC     Office of the General Counsel

       OIG     Office of the Inspector General

       SOC     Statement of Considerations

       SSC     systems, structures, and components




                             v
                          Audit of NRC’s License Renewal Program




[Page intentionally left blank.]




               vi
                                                                  Audit of NRC’s License Renewal Program



TABLE OF CONTENTS

    EXECUTIVE SUMMARY....................................................................................i

    ABBREVIATIONS AND ACRONYMS ...............................................................v

    I.     BACKGROUND ....................................................................................... 1

    II.    PURPOSE................................................................................................ 6

    III.   FINDINGS ................................................................................................ 7

           A.     LICENSE RENEWAL REPORTING EFFORTS NEED IMPROVEMENTS ........... 7
           B.     GUIDANCE FOR REMOVING LICENSEE DOCUMENTS FROM AUDIT
                  SITES COULD BE CLARIFIED .............................................................. 14
           C.     CONSISTENT EVALUATION OF OPERATING EXPERIENCE WOULD
                  IMPROVE NRC REVIEWS ................................................................... 18
           D.     MORE ATTENTION IS NEEDED TO PLANNING FOR POST-RENEWAL
                  INSPECTIONS.................................................................................... 24
           E.     LICENSE RENEWAL ISSUES NEED EVALUATION FOR BACKFIT
                  APPLICATION .................................................................................... 31

    IV.    CONSOLIDATED LIST OF RECOMMENDATIONS .............................. 36

    V.     AGENCY COMMENTS .......................................................................... 39


    APPENDICES

    A. SCOPE AND METHODOLOGY ............................................................... 41

    B. NRC’S DUAL-TRACK LICENSE RENEWAL REVIEW PROCESS .......... 43

    C. OIG CONTENT ANALYSIS ...................................................................... 45

    D. EXAMPLES OF LICENSE RENEWAL APPLICATION TEXT
       REPEATED IN NRC DOCUMENTS ......................................................... 49

    E. FORMAL AGENCY COMMENTS ............................................................. 51

    F. OIG ANALYSIS OF AGENCY COMMENTS............................................. 55


                                                   vii
                        Audit of NRC’s License Renewal Program




[Page intentionally left blank.]




            viii
                                                                 Audit of NRC’s License Renewal Program



I.       BACKGROUND

                   The Atomic Energy Act of 1954, as amended, and U.S. Nuclear
                   Regulatory Commission (NRC) regulations limit the term of an initial
                   nuclear reactor operating license to 40 years. The regulations also
                   allow a license to be renewed for an additional 20 years given that
                   the initial term was based on economic and anti-trust
                   considerations, not technical limitations. Nonetheless, NRC
                   recognizes that some plant systems, structures, and components
                   (SSC) may have been engineered with the expectation of a limited
                   40-year service life. Through technical research, NRC concluded
                   that many aging phenomena are readily managed and therefore
                   should not preclude renewal of a reactor license.

                   In the early 1990s, NRC published requirements for license renewal
                   in the Code of Federal Regulations (CFR). 10 CFR Part 51
                   addresses environmental issues.2 10 CFR Part 543 addresses
                   operating safety issues ─ the main focus of this Office of the
                   Inspector General (OIG) report. Part 54 was amended in 1995 to
                   concentrate NRC’s reviews on how licensees manage adverse
                   effects of aging to provide reasonable assurance that plants will
                   continue to operate in accordance with their current licensing basis
                   for the period of extended operations.

                   In July 2001, NRC issued NUREG-1801, Generic Aging Lessons
                   Learned (GALL) Report, as the agency’s primary technical basis
                   document for NRC-approved programs for managing the aging of a
                   large number of structures and components that are subject to
                   aging management reviews.

                            Agency Assumptions

                   The two key principles of license renewal are: 1) NRC’s existing
                   regulatory process adequately ensures that currently operating
                   plants will continue to maintain adequate levels of safety during
                   extended operation, with the possible exception of detrimental


2
  In response to the National Environmental Policy Act, NRC also pursued an environmental rule, 10 CFR
Part 51, Environmental Protection Regulations for Domestic Licensing and Related Regulatory Functions,
revised 1996.

3
    10 CFR Part 54, Requirements for Renewal of Operating Licenses for Nuclear Power Plants.

                                                     1
                                                                     Audit of NRC’s License Renewal Program



                    effects of aging on certain SSCs, and a few other issues that may
                    arise during the period of extended operation; and 2) each plant’s
                    licensing basis is required to be maintained during the renewal term
                    in the same manner and extent as during the original licensing
                    term. NRC incorporates the following assumptions into its reviews
                    of license renewal applications:

                    ¾ an applicant should rely on the plant’s current licensing basis,4
                      actual plant-specific experience, applicable industry-wide
                      operating experience, and existing engineering evaluations to
                      determine which plant SSCs are the initial focus of a license
                      renewal review; and

                    ¾ a plant’s “active” components5 do not require additional review
                      during license renewal because aging effects of active
                      components are more readily detected and corrected through
                      routine surveillance and maintenance. Therefore, the license
                      renewal process limits its reviews to “passive and long-lived”
                      plant structures and components,6 time-limited aging analyses,7
                      and aging management programs for renewal-related
                      components.

                             Review Process and Program Responsibilities

                    In order to assess the reliability of its assumptions about aging,
                    NRC uses a review process that proceeds along two parallel tracks:




4
 “Current licensing basis” is the set of NRC requirements applicable to a specific plant and a licensee’s
written regulatory commitments for ensuring compliance and operation within applicable NRC requirements
and the plant-specific design basis that are docketed and in effect.
5
    “Active” components include motors, diesel generators, cooling fans, batteries, relays, and switches.
6
 “Passive” and “long-lived” structures and components are those that perform an intended function without
moving parts or a change in properties, and those not subject to replacement based on qualified life or
specified time period, respectively. Passive and long-lived SSCs include reactor vessels, reactor coolant
system piping, steam generators, pressurizers, pump casings, and valve bodies.
7
  “Time-limited aging analyses” are licensee calculations and analyses that: involve SSCs within the scope
of license renewal; consider aging effects; involve assumptions defined by the current 40-year operating
term; are relevant for making a safety decision; involve basis for decision that SSCs are capable of
performing their intended functions; and are contained in or referenced in the current license basis.
                                                        2
                                                                         Audit of NRC’s License Renewal Program



                              a safety review (Part 54) and an environmental review (Part 51).
                              Figure 1 reflects a simplified license renewal safety review process.
                              (See Appendix B for the NRC’s dual-track license renewal review
                              process.)

                                                     Figure 1
                                         Simplified Safety Review Process

                                                            HQ issues
                                  HQ conducts                 Safety
                                                            Evaluation                ACRS                        NRC issues
                                 tech reviews &                                       Review
                                                             Report                                               decision on
Safety review                    on-site audit(s)
                                                                                                                    renewal
of license
renewal
applications                        Regions
                                 conduct on-site                   Region
                                  inspection(s)                    issues
                                                                 inspection
                                                                Report & RA
                                                                    Letter

            Source: OIG-creation based on NRC information


                              As reflected in Figure 1, the safety review process consists of
                              headquarters-based technical reviews, on-site audits, and region-
                              based inspections. Primary responsibility for the license renewal
                              program lies within NRC’s Office of Nuclear Reactor Regulation
                              (NRR), Division of License Renewal (DLR). DLR project teams,
                              consisting of technical auditors and engineer consultants, perform
                              on-site audits to review the supporting documentation for those
                              aging management programs and aging management reviews cited
                              in the licensee’s application as consistent with the GALL Report or
                              based on NRC-accepted past precedence. Concurrently, NRR’s
                              headquarters-based engineering divisions review scoping and
                              screening of SSCs, plant-specific aging management programs and
                              aging management reviews, and other items not addressed in the
                              GALL Report (e.g., unresolved or emergent issues). The results of
                              the NRC staff’s review are documented in a safety evaluation
                              report.

                              Additionally, teams of specialized inspectors from NRC’s four
                              region offices travel to the reactor sites to verify the licensees’
                              claims that current or proposed aging management programs will
                              be effective.


                                                            3
                                                                     Audit of NRC’s License Renewal Program



                  The Advisory Committee on Reactor Safeguards (ACRS) acts as
                  an independent third-party oversight group who reviews safety
                  evaluation report findings as well as inspection report findings and
                  makes recommendations on the renewal application to the
                  Commission. Throughout the process, NRC's Office of the General
                  Counsel (OGC) provides legal and regulatory interpretations as
                  needed and formally reviews and concurs on the safety evaluation
                  reports. When applicable, the Atomic Safety and Licensing Board
                  rules on stakeholders’ requests for license renewal hearings.

                            Application Review Timelines and Costs 8

                  As shown in Figure 2, renewal application processing can take
                  more than 4 years ─ approximately 2 years and $20 million is spent
                  by licensees to research, document, and prepare a license renewal
                  application for submission. For NRC’s review and decision on an
                  application, it typically takes 22 months and $4 million without a
                  hearing, and a projected 30 months9 with a hearing.

                                              Figure 2
                              Application Preparation and Review Process




8
 Regulations allow for renewal applications to be submitted as early as 20 years before expiration of a
current license, but licensees technically have until the end of their 40-year license to apply for an extension.
However, NRC notes that if a “sufficient” application is not submitted at least 5 years prior to license
expiration, a plant may have to cease operations until the renewal decision is made.
9
 OIG notes that NRC’s projected 30-month schedule, including a hearing, has not yet been tested because
none of the license renewals granted to date went through a hearing process.
                                                       4
                                                             Audit of NRC’s License Renewal Program



                         Status of License Renewals

                The agency’s extensive experience with license renewal issues
                began in 1982. As of April 2007, approximately one-half of the
                Nation’s licensed reactors have either received renewed licenses or
                are currently under review. Specifically, license extension requests
                for 48 of the 104 licensed power reactor units in the U.S. have been
                reviewed and approved. Additionally, eight renewal applications
                are currently under review while licensees representing an
                additional 23 plants have announced intentions to submit renewal
                applications through 2013.

                         Proactive License Renewal Program Features

                NRC incorporated several features into the license renewal
                program that correspond to the agency’s Principles of Good
                Regulation. For example,

                ¾ Several facets of openness are built into the process for public
                  involvement, including open meetings and opportunities to
                  request an adjudicatory hearing.

                ¾ For a more efficient license renewal review process:

                         o the GALL Report was developed to document the basis
                           for determining whether existing programs are adequate
                           and for identifying those programs that warrant particular
                           attention during NRC’s review of a license renewal
                           application,

                         o NRC Regulatory Guide 1.18810 helps standardize the
                           format and content of license renewal applications, and

                         o the audit function enables NRC staff to review more
                           applications simultaneously by reducing the need for
                           requests for additional information.




10
 Regulatory Guide 1.188, Standard Format and Content For Applications to Renew Nuclear Power Plant
Operating Licenses.
                                                 5
                                             Audit of NRC’s License Renewal Program



          ¾ Some NRC staff and industry representatives made favorable
            comments to OIG about the clarity of NRC’s guidance regarding
            the expected content for a renewal application and NRC’s
            adherence to its established review schedule, which provides
            reliable planning assistance to NRC technical engineering
            divisions and future license renewal applicants.

II.   PURPOSE

          The purpose of OIG’s audit was to determine the effectiveness of
          NRC’s license renewal safety reviews. Appendix A provides a
          detailed description of the audit’s scope and methodology.




                                    6
                                             Audit of NRC’s License Renewal Program



III. FINDINGS

          Overall, NRC has developed a comprehensive license renewal
          process to evaluate applications for extended periods of operation.
          However, OIG identified areas where improvements would enhance
          program operations. Specifically,

          A.    license renewal reporting efforts need improvements,

          B.    guidance for removing licensee documents from audit sites
                could be clarified,

          C.    consistent evaluation of operating experience would improve
                NRC reviews,

          D.    more attention is needed to planning for post-renewal
                inspections, and

          E.    license renewal issues need evaluation for backfit
                application.

    A.   NRC’s License Renewal Reporting Efforts Need Improvements

          Improvements to the staff’s reporting efforts could provide
          necessary support for NRC’s license renewal decisions. Adequate
          documentation of review methodologies and support for staff
          conclusions in license renewal reports is important for supporting
          the sufficiency and rigor of NRC’s review process. However, the
          NRC staff does not consistently provide adequate descriptions of
          audit methodology or support for conclusions in license renewal
          reports. This is because DLR has not fully established report-
          writing standards and does not have a report quality assurance
          process to ensure adequate documentation. As a result,
          stakeholders and others who read the reports could conclude that
          regulatory decisions are not adequately reviewed and documented.

          Review Documentation Standards and Current Guidance

          NRC's license renewal reviews must be supported to demonstrate
          the adequacy and rigor of NRC’s review process. One way to
          accomplish this is to have documentation to support conclusions in
          NRC’s license renewal reports, which include the license renewal
                                    7
                                                                     Audit of NRC’s License Renewal Program



                    audit, inspection, and safety evaluation reports. DLR’s audit
                    guidance also acknowledges the importance of documentation for
                    reaching conclusions in the audit reports.

                    DLR is responsible for conducting on-site audits of the license
                    renewal applications. The license renewal auditors, referred to
                    internally as the project team, use a handbook titled, Project Team
                    Guidance for License Renewal Application Safety Reviews, to
                    guide the conduct of the audit. A peer review checklist in the
                    Project Team Guidance reminds the reviewer to make sure the
                    conclusions in the audit report are supported by adequate technical
                    bases.

                    Review Methodology and Conclusions are Not Fully Described
                    in Reports

                    License renewal audit, inspection, and safety evaluation reports do
                    not provide full descriptions of the methodology the staff used to
                    review an aging management program or provide full support for
                    the staff’s conclusions. In some cases, the language presented in
                    the audit and safety evaluation reports mirrors the language
                    provided by the licensee in its license renewal application, which,
                    according to NRC, may have been taken by the licensee out of the
                    GALL Report and placed in the application.

                    OIG performed a content analysis of audit, inspection, and safety
                    evaluation reports for a judgmental sample11 of license renewal
                    applications submitted between September 2000 and January
                    2006.12 For its analysis, OIG focused on narrative passages in the
                    applications and reports that addressed the operating experience
                    program element for a selection of aging management programs.13
                    OIG’s analysis resulted in 458 report narrative samples.




11
     Results of this judgmental sample are limited to the population of license renewal applications sampled.
12
  The judgmental sample of applications represents a cross-section of plant ages, technologies, year of
renewal, NRC application review process used, and NRC region. A detailed description of OIG’s content
analysis methodology is presented in Appendix C.
13
 Operating experience is one of ten GALL program elements that a licensee’s aging management program
must satisfy in order to secure approval from NRC.
                                                        8
                                                              Audit of NRC’s License Renewal Program



         OIG found that approximately 76 percent of the audit, inspection,
         and safety evaluation report samples did not provide substantive
         NRC comments about operating experience. Operating experience
         is a critical facet of the review process. For its analysis, OIG
         defined non-substantive samples as those that 1) did not describe
         any review methodology for operating experience or provide any
         specific support for the staff’s conclusions; or 2) provided
         information that was identical or nearly identical to the information
         provided in the licensee’s renewal application. Figure 3 depicts, by
         plant license renewal application, the percent of report samples that
         did not provide substantive NRC comments about operating
         experience.

                             Figure 3
Percent of Report Samples Lacking Substantive Operating Experience
                       Comments, by Plant

                    St. Lucie
               Turkey Point
                       Ginna
       Dresden/Quad Cities
                Point Beach
                  D.C. Cook
                  Brunswick
              Browns Ferry
                    Millstone
                  Monticello
           Vermont Yankee
              Oyster Creek
                  Palisades

                                0%      20%        40%         60%        80%        100%

         Source: OIG analysis of NRC license renewal audit, inspection, and safety evaluation reports;
                 and of license renewal applications.


         In some cases, the identical or nearly identical word-for-word
         repetition of renewal application text found in the audit, inspection,
         or safety evaluation reports are not offset or otherwise marked to
         indicate the text is identical to that found in the license renewal
         application. The lack of precision in differentiating quoted and
         unquoted text makes it difficult for the reader to distinguish between
         the licensee-provided data and NRC staff’s independent
         assessment methodology and conclusion. A reader could conclude
         that they were reading NRC’s independent analysis and
         conclusions when, in fact, it was the licensee’s conclusions. While
                                      9
                                                                    Audit of NRC’s License Renewal Program



                    NRC reviewers may have actually performed such an independent
                    review, a comparison between the license renewal application and
                    the audit report may cast doubt as to what, exactly, NRC did to
                    independently review the licensee’s program other than restate
                    what was provided in the renewal application.

                    For example, NRC's narrative description of operating experience
                    for Millstone's flow-accelerated corrosion program is nearly identical
                    to the description provided in the licensee’s renewal application.
                    NRC's Millstone audit report, shown on the right side of Table 1
                    below, presents information about the trending successes in the
                    Millstone flow-accelerated corrosion program and gives the
                    appearance of the audit team’s independent review and analysis.
                    In fact, this passage is nearly identical to that presented in the
                    license renewal application, shown in the left column of the table.
                    Moreover, while NRC states that the project team reviewed
                    operating experience, there is no discussion of what precisely was
                    reviewed.

                                           Table 1
                      Sample Comparison of Licensee and NRC Report Narrative14
Millstone Unit 2 renewal application                        NRC’s Millstone renewal audit report
The number of planned and unplanned                         The project team reviewed operating experience
replacements has generally trended downward                 for the applicant’s Flow-Accelerated Corrosion
over the past several years due to the                      program. The number of planned and unplanned
establishment of the Flow-Accelerated Corrosion             replacements has generally trended downward
program and following the recommendations                   over the past several years due to the
identified in NSAC-202L. (p. B-42)                          establishment of the Flow-Accelerated Corrosion
                                                            program and following the recommendations
                                                            identified in NSAC-202L. (p. 67-8)
Source: OIG analysis




14
     Additional examples are provided in Appendix D.

                                                       10
                                    Audit of NRC’s License Renewal Program



NRC staff stated that when the licensee claims an aging
management program is consistent with the GALL Report, the
licensee may copy the operating experience from the GALL Report,
and the safety evaluation report may copy the application.
However, OIG’s analysis shows that—for the audit, inspection, and
safety evaluation reports sampled—the staff’s description of the
methods used and the support they provided for their conclusions
often lack substance.

Staff Report-Writing Standards Are Not Fully Established

DLR management has not fully established report-writing standards
for describing the license renewal review methodology and
providing support for conclusions in NRC license renewal audit,
inspection, and safety evaluation reports. DLR managers said that
they expected license renewal staff to use their own language and
avoid copying directly from the license renewal application when
writing renewal reports. The managers said they are aware of the
importance of demonstrating NRC’s independence in the license
renewal reviews. DLR managers also said that they have verbally
communicated and stressed their expectations to the staff. Yet, the
Project Team Guidance does not reiterate these expectations or
provide any report-writing standards that would support
management’s expectations. The Project Team Guidance instead
focuses on the process of compiling the audit and safety evaluation
reports and not on the quality of information presented in these
reports.

DLR management pointed to some report quality assurance tools
that involved audit team leader, peer group, and branch chief
reviews of the audit and safety evaluation reports. DLR places the
greatest emphasis on the audit team leader review to control report
quality. DLR management and staff said that the peer review,
conducted near the end of the report-writing process, is not a page-
by-page review of the audit and safety evaluation reports but is
primarily a spot review seeking to correct major mistakes in the
reports. However, these tools have not ensured that the reports
contain substantive documentation of NRC’s application review
methodology and independent support for staff conclusions.

Essentially, DLR lacks a complete report quality assurance process
to ensure documentation of the staff’s aging management program
review methodology and substantive support for staff conclusions.
                          11
                                       Audit of NRC’s License Renewal Program



While the team leader and peer review tools currently in place
could form the basis of a report quality assurance process, DLR
does not currently have any way to measure or determine the
effectiveness of these team leader and peer reviews. Nor does the
Division have procedures that would specify additional report
quality assurance steps to take, given a pattern or trend in
discovered problems. Such procedures would help DLR
management refine the report quality assurance process to meet
the quality assurance needs of the audit teams and division
directors, as well as those—like ACRS members—who depend on
the audit and safety evaluation reports for their review
responsibilities.

NRC Basis for Conclusions Important to Stakeholders

The basis for conclusions reached by NRC license renewal review
staff is important to stakeholders and others who read NRC’s
reports. The lack of an effective report quality assurance process
to ensure that review methodology and support for conclusions are
provided in the license renewal reports could lead readers to
conclude that regulatory decisions are not adequately reviewed and
documented. Furthermore, providing more substantive analysis
and conclusions would help NRC better meet its strategic goal of
transparency.

NRC internal users—such as members of the ACRS—benefit from
more substantive discussions of license renewal review
methodologies and support for conclusions. ACRS members said
that they rely on information in all of the license renewal reports,
and pointed specifically to the value of the level of detail in the audit
reports.

RECOMMENDATIONS:

OIG recommends that the Executive Director for Operations:

1. Establish report-writing standards in the Project Team Guidance
   for describing the license renewal review methodology and
   providing support for conclusions in the license renewal reports.




                           12
                                    Audit of NRC’s License Renewal Program



2. Revise the report quality assurance process for license renewal
   report review to include:

   •   establishing management controls for NRR and DLR
       management to gauge the effectiveness of team leader and
       peer group report reviews, and

   •   implementing procedures that would specify additional report
       quality assurance steps to be taken in the event that the
       team leader and peer group report reviews fail to ensure
       report quality to management’s expectations.




                         13
                                            Audit of NRC’s License Renewal Program



B.   Guidance for Removing Licensee Documents from Audit Sites
     Could Be Clarified

      OIG found inconsistencies in the guidance provided to license
      renewal auditors with regard to removing licensee documents
      obtained at audit sites. License renewal audit teams should collect
      and document the information they review during site visits.
      However, audit teams are prohibited by DLR from removing
      licensee documents from the audit site, which makes it more
      difficult for audit team members to write their reports without using
      workaround tools. DLR’s policy also creates document handling
      inconsistencies with inspectors, who do keep documents obtained
      from the licensee’s site.

      Information Collection Guidance

      As noted earlier, the license renewal audit team uses the Project
      Team Guidance, to guide the conduct of the audit. With regard to
      documentation, the Project Team Guidance exhorts auditors to
      “properly collect and document the information they review during
      site visits,” especially for information used as a basis for reaching a
      conclusion regarding the audit and safety evaluation reports.

      Audit Teams Prohibited from Removing Licensee Documents
      from Audit Site

      License renewal audit teams, as a matter of DLR policy, are
      prohibited by their management from removing copies of licensee-
      provided documents from the audit site. The licensee provides an
      extensive amount of bases and technical documents for DLR
      auditors. DLR auditors review these documents for information that
      may answer their questions about the license renewal application.
      Licensee staff may exert great effort to make multiple copies of
      documents available, both in hard copy and on compact disc.
      Because DLR management prohibits auditors from removing
      licensee-provided documents, auditors use the time available on-
      site to peruse the documents and interview licensee staff.

      License renewal auditors said that being allowed to take documents
      offsite would aid them in writing and supporting their audit and
      safety evaluation report inputs. They thus resorted to removing
      documents provided by the licensee in violation of the Division’s
      policy.
                                 14
                                                                Audit of NRC’s License Renewal Program



                   DLR management's policy to prohibit license renewal auditors from
                   removing licensee-provided documents from the audit site is also
                   contrary to the policy and practice for license renewal inspectors.
                   For example, NRC region-based license renewal inspectors said
                   that the renewal inspection teams can and do take documents from
                   the site. The inspectors said it is standard procedure to dispose of
                   licensee documents once their report is written.

                   Guidance for Removing Licensee Documents from Audit Sites
                   is Inconsistent

                   OIG found inconsistencies in the guidance provided to license
                   renewal auditors with regard to removing copies of licensee-
                   provided documents from audit sites. DLR management provides
                   the audit teams with verbal guidance to never remove licensee
                   documents obtained from the audit site. However, DLR's Project
                   Team Guidance appears to permit some removal of licensee
                   documents from an audit site, as indicated on page 26:

                            “The project team shall not take documents from an
                            applicant’s site for in-office review, unless the documents are
                            either already in ADAMS or the applicant agrees that the
                            NRC can put the document in ADAMS.” 15

                   Elsewhere, the Project Team Guidance states that “if the
                   documentation cannot go on the docket or into ADAMS then it
                   cannot be taken off site.” A more permissive document removal
                   policy is provided to inspectors through Inspection Manual Chapter
                   0620.16 It provides a number of acceptable practices for obtaining
                   licensee documents, including sending an inspector to the site or
                   using the licensee’s equipment to make copies of relevant
                   materials. The guidance states that copies of licensee records and
                   documents may be reviewed offsite with the licensee’s permission.

                   When asked the reason for the more restrictive verbal removal
                   policy, DLR managers echoed the rationale provided by the Project
                   Team Guidance. They said that most documents provided by the


15
     ADAMS is NRC’s Agencywide Documents Access and Management System.
16
     Inspection Manual Chapter 0620, Inspection Documents and Records, dated January 27, 2006.



                                                   15
                                       Audit of NRC’s License Renewal Program



licensee at the audit site have not been docketed by NRC and,
therefore, DLR does not want license renewal auditors to bring the
undocketed items back to headquarters. According to DLR
management, OGC told NRR staff that all documents that NRC
auditors bring back “must be docketed."

A senior attorney involved with the License Renewal Program said
that OGC warned NRR management not to take documents unless
they are willing to “give them up” through a Freedom of Information
Act request or via a mandatory disclosure requirement for a
hearing. The OGC attorney could not identify any specific guidance
that required NRC to put licensee documents on the docket, and
admitted that NRC’s criteria regarding what licensee documents
must be docketed by the agency is unclear.

The OGC attorney also said that the practice among region-based
inspectors to remove licensee-provided documents from a license
renewal site is acceptable. However, the attorney expressed
concern about the inconsistent practices of the license renewal
audit and inspection staffs regarding the removal of documents
from license renewal sites.

Consequences of DLR’s Documentation Policies and Practices

DLR’s prohibition on its audit staff from removing documents
provided by the licensee at license renewal sites makes it more
difficult for the auditors to write their inputs to the audit and safety
evaluation reports. Instead, the audit staff has to rely on notes and
memory, and use other source document workarounds—such as
worksheets and the licensee-managed database of questions and
answers—to construct input for the audit and safety evaluation
reports. Given the Division’s greater reliance on the staff to
perform audits with fewer contractors, any effort to provide auditors
with source documents may contribute to review efficiencies.

Furthermore, NRR’s policy also leads to document handling
inconsistencies between the license renewal audit and inspection
teams. The same blanket prohibition on removal of licensee
documents from the licensee’s site does not extend to license
renewal inspectors.




                           16
                                   Audit of NRC’s License Renewal Program



RECOMMENDATION:

OIG recommends that the Executive Director for Operations:

3. Clarify guidance and adjust procedures for auditors’ and
   inspectors’ removal of licensee-provided documents from
   license renewal sites




                         17
                                          Audit of NRC’s License Renewal Program



C.   Consistent Evaluation of Operating Experience Would Improve
     NRC Reviews

      License renewal audit teams have a unique opportunity to improve
      the NRC license renewal review with a deeper and more consistent
      approach to reviewing operating experience. Operating experience
      plays an important role in license renewal, and the license renewal
      staff is expected to review plant-specific operating experience,
      including corrective actions. Yet, audit team members do not
      review operating experience consistently. Furthermore, most audit
      team members do not conduct independent verification of operating
      experience, instead relying on licensee-supplied information. This
      is because program managers have not established requirements
      and controls to standardize the conduct and depth of such reviews.
      In the absence of conducting independent verification of plant-
      specific operating experience, license renewal auditors may not
      have adequate assurances that relevant operating experience was
      captured in the licensee’s renewal application for NRC’s
      consideration.

      The Importance of Operating Experience to License Renewal

      Operating experience plays an important role in license renewal
      and figures prominently in a licensee’s renewal application. NRC’s
      Standard Review Plan for Review of License Renewal Applications
      for Nuclear Power Plants (Standard Review Plan) instructs NRC
      staff to assess 10 program elements for each aging management
      program submitted in a licensee’s renewal application. Operating
      experience is listed as one of these 10 elements, and defined in
      brief in the Generic Aging Lessons Learned (GALL) Report
      summary as follows:

            “Operating experience involving the aging management
            program, including past corrective actions resulting in
            program enhancements or additional programs, should
            provide objective evidence to support a determination that
            the effects of aging will be adequately managed so that the
            structure and component intended functions will be
            maintained during the period of extended operation.” (p. 2)

      Operating experience is also an important part of two other aging
      management program elements: specifically, detection of aging
      effects, and monitoring and trending. The Standard Review Plan
                                18
                                      Audit of NRC’s License Renewal Program



also calls attention to the importance of the licensee’s plant-specific
operating experience in relation to scoping and screening, aging
management review, and time-limited aging analyses activities.
DLR management also said that it expects its license renewal staff
to review plant-specific operating experience, including corrective
actions. Given the Standard Review Plan’s emphasis on operating
experience and on management’s expectations, OIG concludes
there is ample reason for the licensee to provide—and NRC to
review—sufficient amounts of operating experience information and
data.

Operating Experience Is Not Consistently Reviewed or
Independently Verified

When reviewing aging management programs, license renewal
audit team members do not approach their reviews of operating
experience consistently and, furthermore, most team members do
not conduct independent verification of operating experience.
Team members are assigned aging management programs to
review based on their areas of expertise. A more experienced
reviewer or auditor may look more in-depth at, or conduct
independent spot checks of, licensee-submitted information
provided in the license renewal application.

OIG asked license renewal auditors and management about the
appropriateness of conducting independent searches of licensee
operating experience. Such searches might examine the licensees’
corrective actions, system health reports, and inspection results.
NRR managers said that they expect the audit teams to review
plant-specific operating experience. Some managers said they
expected license renewal auditors to perform their own searches of
corrective actions rather than rely solely on information provided by
the licensee.

However, license renewal auditors said that they generally do not
conduct independent searches of licensee corrective action
databases and that auditors would not normally review a plant’s
corrective action program for each aging management program
because the industry-wide experience is already known. One
reviewer said that it is the licensee’s responsibility to provide NRC
with plant-specific operating experience that is different from
industry-wide operating experience. The auditor reviews only what
the licensee provided in its application. Another reviewer said
                           19
                                                                      Audit of NRC’s License Renewal Program



                   that capturing plant-specific operating experience is time-
                   consuming or that it is too difficult to learn how to use the licensees’
                   corrective action program databases.

                   With the assistance of an OIG technical advisor having a general
                   engineering background, OIG sought to learn how difficult it would
                   be to generate a useful database report of corrective actions. OIG
                   staff visited two separate plants owned by large utility companies
                   and, using computers attached to the respective owners’ local area
                   networks, performed keyword searches of the corrective action
                   databases.17 OIG’s technical advisor searched the available
                   network data for the host plant and for several other already
                   renewed plants in their respective fleets.18

                   From these searches, OIG was able to identify a number of areas
                   for each plant that would warrant follow-up questions for licensees
                   regarding past performance of license renewal aging management
                   programs. Given the time to conduct and analyze the database
                   searches, OIG concluded that accessing the corrective action
                   databases was relatively easy and provided access to a good deal
                   of information of potential value to license renewal audit teams.
                   OIG does not believe that the results of such a search would
                   necessarily validate an entire aging management program, but the
                   endeavor does identify a relatively easy way for license renewal
                   auditors to conduct an independent check of the information
                   provided by the licensee.

                   Requirements to Independently Verify Operating Experience
                   Have Not Been Established

                   License renewal program managers have not established
                   requirements or controls to standardize the conduct of independent
                   verifications and depth of probes of plant-specific operating
                   experience during audit reviews of licensee applications. That is
                   not to suggest that DLR management has failed to mention the
                   importance of reviewing operating experience to audit teams. On


17
  Keywords included “corrosion,” “cracking,” “fatigue,” “leak,” “pitting,” “drywell,” “HPCI,” “primary
containment,” “secondary containment,” and “Torus.”
18
  It is important to note that OIG staff had no previous experience or familiarity using these databases. At
both plant sites, OIG staff needed approximately 5 hours total to learn basic search mechanisms for the
corrective action databases, and then perform the keyword search for three plants in each fleet.
                                                       20
                                    Audit of NRC’s License Renewal Program



the contrary, OIG observed DLR management discussing the
importance of plant-specific operating experience with license
renewal auditors at a team meeting.

DLR management has not set any formal requirements that license
renewal audit teams independently verify plant-specific operating
experience as a standard part of their reviews. The Project Team
Guidance handbook instructs reviewers to compare program
elements for the plant’s aging management programs to the
corresponding program elements for GALL-identified aging
management programs. But the Project Team Guidance handbook
does not include any specific direction about how this should be
accomplished. Essentially, the guidance leaves a lot of leeway to
individual auditors to review operating experience as they see fit.

DLR also has no controls to monitor and enforce operating
experience verification, which incorporate independent searches of
corrective action databases. One manager said that more
management controls to bring consistency to the reviews would be
welcomed. The manager pointed out that DLR management can
require audit teams to perform deeper probes of operating
experience, but has no way of determining whether the auditors
follow through.

Auditors May Not Be Aware of All Relevant Operating
Experience

In the absence of conducting independent verification of plant-
specific operating experience, license renewal auditors may not
have adequate assurances that all relevant operating experience
was captured in the licensee’s renewal application. As reported
above, OIG was able to identify a number of areas for each plant
that would warrant follow-up questions for licensees regarding past
performance of license renewal aging management programs.

OIG’s work in this area was, in part, informed by a discrepancy
noted while reviewing the Oconee license renewal application.
NRC received the Oconee plant’s license renewal application in
July 1998, whereupon the application remained under review until
renewal was granted in May 2000. The application stated that
minor local containment coatings failures had been observed and


                          21
                                                                    Audit of NRC’s License Renewal Program



                  repaired. Yet, the Oconee corrective action program contained 20
                  entries for degraded coatings from 1995-2003.19 OIG’s analysis of
                  this corrective action program indicates that the coatings aging
                  management program had not been implemented consistent with
                  the statements in the Oconee license renewal application. In fact,
                  coatings degradation was a continuing problem at the Oconee
                  Nuclear Station as of Spring 2004, the date of the photograph
                  presented in Figure 4 below, casting doubt on the efficacy of
                  Oconee’s aging management program for coatings.

                                       Figure 4
                      Example of Coatings Degradation at Oconee




                  Source: NRC Inspector


                  NRC license renewal reports do not indicate that NRC reviewers
                  independently verified Oconee’s operating experience for coatings.
                  The license renewal inspection report states that the inspection
                  included a review of the program description documents and
                  discussion of the program with a site engineer. The inspection
                  report concluded, based on the program document review and the


19
   Six of the entries were made prior to the submittal of the license renewal application in 1998. Two of the
entries were made after the renewal application was submitted, but prior to the granting of the renewed
license in May of 2000.
                                                     22
                                    Audit of NRC’s License Renewal Program



discussion, that the “team verified that this previously existing
program was implemented as described in the [license renewal
application].” The license renewal safety evaluation report for
Oconee quotes or paraphrases passages from the Oconee renewal
application, including the licensee’s conclusion that the program is
based on well-established industry standards and has been revised
as necessary on the basis of plant experience. The staff
acknowledged in the safety evaluation report that the licensee did
not provide coatings program operating experience in its
application, yet the staff did not offer any indication of having
conducted an independent look at coatings operating experience.

OIG contends that a quickly-performed, independent search of the
Oconee corrective action database would have revealed
discrepancies with the information and assessment provided by the
licensee in the renewal application. Such a search would have
generated the corrective action reports that described continuing
coatings problems and raised questions about the licensee’s
contention that minor local containment coatings failures have been
observed and repaired. Moreover, performing and documenting
this type of search helps NRC prevent the appearance that license
renewal reviewers trust information provided by the licensee in the
renewal application without verification.

RECOMMENDATION:

OIG recommends that the Executive Director for Operations:

4. Establish requirements and management controls to
   standardize the conduct and depth of license renewal operating
   experience reviews.




                          23
                                                                    Audit of NRC’s License Renewal Program



           D.    More Attention Is Needed to Planning for Post-Renewal
                 Inspections

                   NRC considers post-renewal inspections vital to ensure that
                   licensees adhered to commitments made for license renewal.20
                   However, post-renewal inspection planning is incomplete because
                   the agency has only recently focused its attention on developing
                   and overseeing details associated with these inspections.
                   Inadequate planning increases the risk that: licensees could enter
                   into the extended period of operation without being in full
                   compliance with license renewal terms; inspections will be
                   inconsistently implemented; and inspection and technical support
                   resources will be unavailable when needed.

                   Timely Inspection Planning Is Essential

                   Post-renewal inspections will play a vital role in ensuring that
                   licensees followed through on their license renewal commitments
                   and, therefore, thorough planning for these inspections is essential.
                   Regional inspection guidance states that the best inspection plans
                   are prepared well in advance, list clear expectations, and should be
                   developed by working closely with the key customers – for license
                   renewal that means NRC and licensee staffs. Thorough planning
                   would help ensure appropriate inspection resource needs are met
                   and bring consistency to the implementation of the post-renewal
                   inspections.

                   Post-Renewal Inspection Details Are Not Fully Developed

                   Despite the importance of planning for the required post-renewal
                   inspections, details have not been fully developed. Inspection
                   Manual Chapter 251621 states that a post-renewal inspection, in
                   accordance with Inspection Procedure 71003, Post-Approval Site
                   Inspection for License Renewal, will be conducted at sites receiving
                   an NRC-approved license extension. Inspection Manual Chapter
                   2516 also identifies NRR as the organization responsible for


20
  NRC established a two-phase license renewal inspection program: the phase one inspections occur
during the safety review process and phase two consists of post-renewal inspections (i.e., after NRC has
granted the license extension). Planning for the post-renewal inspections is the focus of this report section.
21
     Inspection Manual Chapter 2516, Policy and Guidance for the License Renewal Inspection Programs.

                                                      24
                                    Audit of NRC’s License Renewal Program



planning and overseeing license renewal inspections. NRC’s four
regions are then responsible for implementing the inspections.
Although the agency has initiated a revision to Inspection
Procedure 71003, details regarding the scope, timing, and resource
determinations of these inspections have not been specified or fully
developed. NRC anticipates that all relevant issues will be
addressed in the revised procedure.

Undefined Scope

Inspection Procedure 71003 states that the purpose of post-
renewal inspections is to verify that licensees implemented renewal
aging management programs and activities in accordance with: the
requirements of 10 CFR Part 54; renewal-specific license
commitments; and NRC’s safety evaluation report. However, the
inspection procedure as written does not give the specifics of the
breadth and scope expected of these inspections, such as:

¾ the sample size of the aging management programs or licensee
  commitments to be inspected;

¾ whether there are licensee commitments and aging
  management programs established after the application was
  approved that must be included in the sample;

¾ whether inspectors must have headquarters’ concurrence on
  potentially unresolved commitments, who in NRR should be
  contacted and how, and when that interaction should occur; and

¾ who determines, and on what basis, whether the licensee
  continues to meet the commitments required for operating into
  the extended period.

Timing of Post-Renewal Inspections is Not Clearly Understood

Timing of the post-renewal inspections is critical because NRC will
use the results to determine whether a licensee can safely continue
to operate into an extended period. However, Inspection
Procedure 71003 gives a broad range for, and NRC’s written and
verbal expectations vary on, the timing required for conducting the
post-renewal inspections. As a result, region staff and licensees do
not have sufficient detailed information needed to plan for the
upcoming post-renewal inspections even though the first of these
                          25
                                      Audit of NRC’s License Renewal Program



inspections are due in calendar year 2009. It is important that the
revision to Inspection Procedure 71003 provide the necessary
details.

Regional Impact

Inspection Procedure 71003 states that post-renewal inspections
should be implemented either before or shortly after the
commencement of the extended period of operation. Yet, another
agency document says that the post-renewal inspections will be
performed ‘in the vicinity of’ the period of extended operation –
within a year prior to or following the extended license taking effect.
Neither document defines the basis for the time periods established
for conducting these inspections. [emphasis added]

NRC expects the number of new license renewal applications
requiring NRC inspections to peak in FY 2009. The peak in new
license renewal activity coincides with the timeframe for conducting
the first post-renewal inspections. Because region-based
inspectors are not dedicated solely to license renewal matters, the
post-renewal inspection activities must be factored into their overall
inspection schedules. The regions’ inspection planning horizon is
18 months. NRC’s FY 2009 proposed budget includes a request
for the regions to conduct the needed post-renewal inspections.

Licensee Impact

For planning and budgeting purposes, industry representatives
from the Nuclear Energy Institute (NEI) and licensee organizations
have repeatedly requested that NRC provide more specific details
on the post-renewal inspections. At a January 2007 NRC/NEI
interface meeting, industry again requested detailed information
regarding NRC’s expectations for implementing these inspections.
An NRC senior manager responded that the details, including the
timeline, for the post-renewal inspections are “being worked on but
as yet there is no schedule defined.”

In addition, industry and NRC managers, as well as inspection staff,
have expressed different positions with regard to the timing of the
post-renewal inspections, including when license renewal
commitments must be ready for NRC’s post-renewal inspection.


                           26
                                    Audit of NRC’s License Renewal Program



The following paraphrased exchange between a licensee and NRC
license renewal senior managers at the January 2007 NRC/NEI
meeting demonstrates NRC’s inconsistent expectations:

      A renewal licensee expressed confusion over the
      timing of the 71003 inspections. According to
      the licensee, an NRC regional lead inspector
      announced that post-renewal inspections in one
      region will occur in 2008 even though the original
      license in question does not expire until
      sometime in 2009. A senior DLR manager
      responded that licensees technically have until
      the end of the full 40-year license to meet the
      conditions of the license extension. However,
      another key license renewal manager countered
      that renewal commitments should be completed
      2 years before license expiration so that NRC
      can verify the commitments are effective before
      licensees enter the extended period of operation.

Inspection Resource Needs Are Not Fully Developed

Agency managers acknowledge that resource planning for the post-
renewal inspections is important. However, agency managers
acknowledge that post-renewal inspection staffing and budget
needs have not been fully developed. Furthermore, management
questions whether information needed to prepare accurate post-
renewal inspection budget requests will be available in a timely
manner.

License renewal program management told OIG that planning for
the post-renewal inspections is not only important, but particularly
timely given the recent request for the NRR’s FY 2009 budget
needs. However, as stated above, the regions have not yet
factored these inspections into the overall inspection schedule and
planning is hindered because there is not consensus on what
resources will be needed. For example, Inspection Procedure
71003 estimates that the post-renewal inspection teams will consist
of five members ─ four inspectors and a team leader. The
inspection procedure also estimates that each inspection will take 5
to 6 weeks, including 2 weeks on-site, and require about .52 full-
time equivalents. Although acknowledging that none of these
inspections have occurred as yet, a senior region manager
                          27
                                     Audit of NRC’s License Renewal Program



responsible for inspection program scheduling and oversight
estimates that it will take half the time on-site and twice the
resources to perform the post-renewal inspections given the
narrowly defined scope in Inspection Procedure 71003.

There is also no indication that the resource estimates established
in Inspection Procedure 71003 factor in the potential need for
multiple rounds of inspections and/or the time needed should the
inspectors require headquarters technical support for issue
resolution. Because NRR has not finalized the details about the
scope, timing, and responsibilities for the post-renewal inspections,
it is questionable whether an accurate and meaningful budget
request can be prepared. It is necessary that the revision to
Inspection Procedure 71003 address these issues.

Improved Organizational Focus Is Needed

Post-renewal inspection planning is incomplete because
management has not focused its attention on developing and
overseeing plans for this future activity. Until recently, there had
been little discussion between NRR senior managers and those
ultimately responsible for implementing and preparing for the post-
renewal inspections, namely region-based inspectors and
licensees.

NRR is responsible for the development and implementation of
license renewal programs and activities, and is responsible for
technical and inspection support. According to agency managers
and staff, the reason why NRR managers have not focused
attention on planning the details of Inspection Procedure 71003 is
because the post-renewal inspections are viewed as activities
outside of license renewal space and because these inspections
would not occur for several more years. NRR notes that it started
an effort to revise Inspection Procedure 71003 in the summer of
2006.

Challenges Associated with Incomplete Planning

Using under-developed Inspection Procedure 71003 for planning
the post-renewal inspections would result in some risks and
management challenges that could hamper the efficiency and
effectiveness of the license renewal program. The most significant

                           28
                                     Audit of NRC’s License Renewal Program



concern is that licensees could potentially begin operating into the
extended period without being in full compliance with the terms or
intent of their renewed license.

Planning for the specific timing of the post-renewal inspections is
important because inspectors are expected to verify license
renewal commitments that must be in place and accepted before
the end of the original operating period. Otherwise NRC may be at
risk of allowing a plant to enter into an extended period of operation
in noncompliance with the terms or intent of the renewed license.
This risk would be particularly acute for licensees with outstanding
commitments to develop and implement new aging management
programs years after their license renewal applications were
reviewed and approved. There is no consideration in the license
renewal process for subjecting new aging management programs
to the same type of technical sufficiency reviews as existing aging
management programs. Therefore, scheduling the post-renewal
inspections needed to confirm the existence or implementation of
the new aging management programs after the period of extended
operation has begun exacerbates these risks.

The lack of a detailed and standardized inspection methodology
could also lead to inconsistent post-renewal inspections. Without
this planning, there exists the potential that individual inspectors—
or, at a minimum, each region—will devise their own inspection
methodology and may not receive the information needed to
develop site-specific, comprehensive inspection plans, such as
which version of the GALL Report and other agency requirements
applies for each inspection.

Finally, without the information needed to adequately make the
budget and staffing determinations, the license renewal program
could be left vulnerable to unanticipated budget and staffing shifts.
This major challenge, voiced by NRC and industry alike, concerns
whether necessary inspection resources will be available when the
time comes to implement the post-renewal inspections.




                           29
                                    Audit of NRC’s License Renewal Program



RECOMMENDATIONS:

OIG recommends that the Executive Director for Operations:

5. Expedite completion of the details for a revised Inspection
   Procedure 71003.

6. Communicate the details of revised Inspection Procedure 71003
   to all applicable staff and stakeholders.




                          30
                                             Audit of NRC’s License Renewal Program




E.   License Renewal Issues Need Evaluation for Backfit Application

      When NRC imposes new staff positions resulting in new license
      renewal review standards, a documented justification is required
      pursuant to the backfit rule. However, new license renewal review
      standards have not followed NRC’s backfit policy. This condition
      exists because NRC does not have a mechanism or methodology
      to trigger a backfit review. Additionally, NRR has not designated
      any organizational accountability for performing license renewal-
      related backfit justifications. Consequently, the use of different
      review standards without a backfit justification may result in several
      management challenges.

      Backfit Requirements

      The Code of Federal Regulations, under 10 CFR 50.109, defines
      backfitting to include new or different staff positions that require
      changes to things such as designs, plant equipment, and
      procedures. As shown below, the regulation also requires that staff
      document its justification for imposing a backfit regardless of which
      justification is cited:

      •   a “documented evaluation” is required when backfitting is
          justified (1) for compliance, (2) as necessary for adequate
          protection, or (3) as needed to redefine adequate protection.
          The documented evaluation must include a statement of the
          objectives and reasons for the change and a basis for invoking
          either a compliance exception or adequate protection exception,
          whereas

      •   a “systematic and documented analysis,” which includes a cost-
          benefit analysis, is required when the NRC claims a substantial
          increase in public health and safety justifies the cost of a backfit.

      New Staff Positions Are Not Reviewed for Backfit
      Consideration

      NRC captures new insights or emerging issues during license
      renewal reviews and from operating reactor performance. These
      new insights or issues may lead to a new staff position that results
      in a new review standard. However, the staff’s position is that the

                                  31
                                                             Audit of NRC’s License Renewal Program



                backfit rule does not apply to license renewal applicants based on
                exceptions in 10 CFR 54.37(b) and a 1995 Commission Statement
                of Considerations (SOC) published with promulgation of the
                License Renewal Rule. Therefore, new license renewal standards
                are not reviewed and documented for backfit considerations
                because there is no identified procedure to do so.

                New staff positions are documented in Interim Staff Guidance (ISG)
                documents. ISGs are used to communicate new NRC review
                standards to renewal applicants and other interested stakeholders
                until the emerging issues can be incorporated into the next revision
                of the license renewal guidance documents, particularly the GALL
                Report – the primary license renewal guidance document. There
                are two types of ISG documents: clarification and compliance.

                According to the agency, clarification ISGs provide additional
                guidance to renewal applicants to improve the efficiency and
                effectiveness of the license renewal process, and thereby do not
                create new staff positions and do not apply to licensees holding
                renewal licenses. On the other hand, compliance ISGs involve
                meeting the requirements of 10 CFR 54.37(b) and, therefore, do
                apply to both applicants and licensees holding renewed licenses.
                The agency further states that the only ISGs applicable to holders
                of renewed licenses are those compliance ISGs involving “newly
                identified” SSCs that should be in the scope of license renewal in
                accordance with 10 CFR 54.37(b). Finally, the agency concludes
                that requiring licensees to consider aging management for newly
                identified SSCs after a license is renewed is not a backfit issue.

                In November 2006, NRC issued LR-ISG-2006-0122 as a
                “clarification” ISG. The ISG requires current and future license
                renewal applicants to add a new aging management program in
                their applications to address inaccessible areas of the Mark I steel
                containment drywell shell. By requiring a new aging management
                program, this ISG went beyond providing “additional guidance” as
                intended with a clarification ISG. Additionally, the steel
                containment drywell shell is not a newly-identified area but is an
                SSC already within the scope of license renewal reviews.
                Furthermore, there was no documented evaluation or analysis


22
  LR-ISG-2006-01, Plant-Specific Aging Management Program for Inaccessible Areas of BWR Mark I Steel
Containment Drywell Shell, dated November 2006.
                                                32
                                     Audit of NRC’s License Renewal Program



justifying whether NRC’s new position should be backfit to already
renewed licenses. Consequently, plants renewed prior to
November 2006 may manage aging effects of drywell shells to a
different standard. Finally, OIG concludes that using LR-ISG-2006-
01 to change the review standard of drywell shell aging
management represents a miscategorization of this ISG as a
“clarification” rather than a “compliance” issue.

Renewal Review Process Does Not Trigger Backfit Evaluations

Although NRC senior managers confirmed that new staff positions
should be properly justified and they expect that they are, the staff
has not justified ISGs as required by NRC’s backfit rule. OIG found
that there is no mechanism in the license renewal review process to
trigger documented backfit justifications of ISGs, nor is there a
methodology for conducting such evaluations or analysis of ISGs
and the new standards they impose.

OIG’s examination of license renewal guidance documents also
determined that the organizational accountability for these
documented justifications has not been clearly established. NRC
managers and staff gave OIG inconsistent information about where
the backfit reviews should be assigned. In fact, senior managers
identified different NRR organizations as currently accountable for
backfit justifications, none of which conduct backfit reviews.

Challenges Associated With Unjustified, Nonuniform Review
Standards

NRC’s use of different review standards without justification from a
backfit evaluation or analysis may result in the following
management challenges:

¾ the appearance that previous approval standards may have
  been inadequate,

¾ stakeholders questioning continually changing review
  standards, and

¾ licensees managing aging effects differently from plant-to-plant.




                          33
                                    Audit of NRC’s License Renewal Program



Appearance that Previous Approval Standards May Have Been
Inadequate

Because ISGs do not receive backfit reviews, there may be an
appearance that inadequate standards were applied to previously
approved license renewal applications. As a result, NRC may be
vulnerable to questions about the adequacy of its approval process
and the adequacy of those aging management programs already
approved.

Stakeholders Question Continually Changing Review Standards

Licensees have questioned the basis for NRC’s application of
different review standards in the absence of justification through
backfit reviews. The agency portrays the license renewal program
as a living process to be updated for improvement as experience is
gained. Industry representatives acknowledge the value of process
improvements, but question the basis for NRC’s continually
changing requirements as reflected in the following statement from
an industry license renewal vice president:

   If submissions were good enough before but not now [given
   NRC’s issuance of new standards], does that mean that the
   previously approved applications did not really have enough
   substance to be granted a renewed license?

Using the backfit process as an integral part of ISG reviews would
explain and justify NRC’s changing positions and hopefully
eliminate licensee questions about NRC’s different review
standards.

Licensees May Manage Aging Effects Differently from Plant-to-
Plant

The lack of a systematic application of the backfit process also
raises potential safety questions when plants manage the same
aging effects differently without a specific justification. This is
particularly true when NRC identifies a system or component that
needs a new aging management program, then requires current
and future license renewal applicants to address the newly-
identified issue, but does not require already approved licensees to
do the same.

                          34
                                     Audit of NRC’s License Renewal Program



RECOMMENDATIONS:

OIG recommends that the Executive Director for Operations:

7. Establish a review process to determine whether or not Interim
   Staff Guidance meets the provisions of 10 CFR 54.37(b), and
   document accordingly.

OIG recommends that the Commission:

8. Affirm or modify the 1995 Commission’s Statement of
   Considerations position regarding the applicability of the backfit
   rule to license renewal applicants.




                          35
                                              Audit of NRC’s License Renewal Program



IV.   CONSOLIDATED LIST OF RECOMMENDATIONS

          OIG recommends that the Executive Director for Operations:

          1. Establish report-writing standards in the Project Team Guidance
             for describing the license renewal review methodology and
             providing support for conclusions in the license renewal reports.

          2. Revise the report quality assurance process for license renewal
             report review to include:

                •   establishing management controls for NRR and DLR
                    management to gauge the effectiveness of team leader
                    and peer group report reviews, and

                •   implementing procedures that would specify additional
                    report quality assurance steps to be taken in the event
                    that the team leader and peer group report reviews fail to
                    ensure report quality to management’s expectations.

          3. Clarify guidance and adjust procedures for auditors’ and
             inspectors’ removal of licensee-provided documents from
             license renewal sites.

          4. Establish requirements and management controls to
             standardize the conduct and depth of license renewal operating
             experience reviews.

          5. Expedite completion of the details for a revised Inspection
             Procedure 71003.

          6. Communicate the details of revised Inspection Procedure 71003
             to all applicable staff and stakeholders.

          7. Establish a review process to determine whether or not Interim
             Staff Guidance meets the provisions of 10 CFR 54.37(b), and
             document accordingly.




                                    36
                                     Audit of NRC’s License Renewal Program



OIG recommends that the Commission:

8. Affirm or modify the 1995 Commission’s Statement of
   Considerations position regarding the applicability of the backfit
   rule to license renewal applicants.




                          37
                          Audit of NRC’s License Renewal Program




[Page intentionally left blank.]




              38
                                                           Audit of NRC’s License Renewal Program



V.         AGENCY COMMENTS

                     On May 8, 2007, OIG issued its draft report to the Executive
                     Director for Operations. OIG subsequently met with managers from
                     DLR and OGC to address specific issues and concerns needing
                     further clarification and/or explanation. On July 6, 2007, the Deputy
                     Executive Director for Reactor Programs provided a formal
                     response to this report in which the agency disagreed with OIG’s
                     finding regarding applicability of the backfit rule to license renewal
                     applicants. The agency’s transmittal letter and specific comments
                     on this report are included in their entirety as Appendix E.

                     The staff’s position is that 10 CFR 50.109, “Backfitting,” does not
                     apply to license renewal (for holders of renewed licenses) with
                     respect to new structures, systems or components (SSC) brought
                     within the scope of the license renewal rule as required by 10 CFR
                     54.37(b). Conversely, the agency acknowledges that the backfit
                     rule does generally apply for SSCs that were or should have been
                     reviewed during the scope of license renewal review. [emphasis
                     added] OIG generally concurs with these two positions, although
                     OIG determined that the agency does not have a process to identify
                     whether ISGs meet the provisions in 10 CFR 54.37(b) thereby
                     making them exempt from backfitting.

                     However, OIG disagrees with the staff’s position that the backfitting
                     rule does not apply to license renewal applicants based on
                     exceptions in 10 CFR 54.37(b) and the 1995 SOC published with
                     promulgation of the License Renewal Rule. OIG believes that the
                     plain language of the backfit regulation states that the backfit rule is
                     applicable to holders of an operating license, which by default
                     includes applicants seeking a renewed license.23 OIG found no
                     exception or provision in either the backfit rule or the License
                     Renewal Rule that suspends applicability of the rule to license
                     renewal “applicants” or the information in their renewal applications.
                     Consequently, the sole regulatory basis for the staff’s position that
                     backfitting does not apply to applicants is the 1995 SOC.




23
     10 CFR 50.109(a)(1)(iii).

                                                39
                                      Audit of NRC’s License Renewal Program



OIG notes that the 1995 Commission’s SOC position is 12 years
old and was written prior to any license renewal applications being
processed. NRC has now processed 48 license extensions.
Based on this experience, the SOC needs to be reevaluated.

This final report incorporates revisions made, where appropriate, as
a result of the subsequent meetings and the agency’s written
comments. In addition, based on the agency’s response, OIG
revised and redirected Recommendation 8 to request that the
Commission affirm or modify the 1995 Commission’s Statement of
Considerations position regarding the applicability of the backfit rule
to license renewal applicants. Appendix F contains OIG’s complete
analysis of the agency’s formal response.




                           40
                                           Audit of NRC’s License Renewal Program


                                                                     Appendix A
SCOPE AND METHODOLOGY

       NRC’s license renewal review process follows two paths: safety
       and environmental. The focus of this audit was to determine the
       effectiveness of NRC’s license renewal safety reviews. To address
       the audit objective, OIG reviewed relevant management controls,
       related documentation from internal and external sources, and
       Federal statutes, including reviews of:

          ¾ The Atomic Energy Act of 1954

          ¾ NEI 95-10, Industry Guideline for Implementing the
            Requirements of 10 CFR Part 54 – The License Renewal
            Rule

          ¾ Licensee Corrective Action Program databases

          ¾   Code of Federal Regulations, Title 10, Parts 50, 51 and 54

          ¾ NRR/Division of License Renewal Project Team Guidance

          ¾ NRR’s Self Assessment of License Renewal Application
            Improved Safety Review Process

          ¾ Inspection Manual Chapters (IMC)

              -   IMC 0620, Inspection Documents and Records
              -   IMC 2516, Policy and Guidance for the License Renewal
                  Inspection Programs
              -   Inspection Procedures 71002 and 71003

          ¾ Regulatory Guides 1.147 and 1.188

          ¾ Management Directive 8.4, Management of Facility-specific
            Backfitting and Information Collection

          ¾ NUREGs, including:

              -   NUREG-1800, Standard Review Plan for Review of
                  License Renewal Applications for Nuclear Power Plants,
                  and

                                 41
                                     Audit of NRC’s License Renewal Program



      -   NUREG-1801, Generic Aging Lessons Learned (GALL)
          Report

Auditors conducted interviews with more than 50 agency and
industry individuals, including:

      ¾ NRC senior managers and staff from:

          -   Headquarters, Rockville, Maryland
          -   Region I, King of Prussia, Pennsylvania
          -   Region II, Atlanta, Georgia
          -   Region III, Lisle, Illinois
          -   Region IV, Arlington, Texas

      ¾ OGC and ACRS members at NRC Headquarters

      ¾ Industry representatives and plant personnel from:

          - The Nuclear Energy Institute
          - Exelon Nuclear
          - Entergy Nuclear

OIG conducted this audit between March 2006 and December 2006
in accordance with generally accepted Government auditing
standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our
audit objectives.

The major contributors to this report were Anthony Lipuma, Team
Leader; Catherine Colleli, Audit Manager; Robert K. Wild, Senior
Management Analyst; Michael Cash, Senior Technical Advisor; and
Jaclyn Storch, Management Analyst.




                           42
                              Audit of NRC’s License Renewal Program


                                                        Appendix B

NRC’S DUAL-TRACK LICENSE RENEWAL REVIEW PROCESS




                       43
                          Audit of NRC’s License Renewal Program




[Page intentionally left blank.]




              44
                                                                  Audit of NRC’s License Renewal Program


                                                                                               Appendix C
OIG CONTENT ANALYSIS

                 OIG performed a content analysis of audit reports, inspection
                 reports, and safety evaluation reports for a judgmental sample of
                 license renewal applications submitted between September 2000
                 and January 2006.24 The judgmental sample of license renewal
                 applications represents a cross-section of plant ages, technologies,
                 year of renewal, NRC review method, and NRC region. For the
                 review, OIG focused on narrative passages in the applications and
                 reports that addressed the operating experience program element
                 for a selection of aging management programs.25 The OIG sample
                 generated 458 data points reflecting how the license renewal
                 auditor’s methodology and support for conclusions was addressed
                 in the audit, inspection, and safety evaluation reports, as shown in
                 the following table:




24
  OIG chose a judgmental sample in order to assure a mix of different plant types and renewal program
experience. Consequently, this report presents findings related to the sample only and does not extrapolate
results from the sample to the entire universe of renewal reviews.
25
  Not all aging management programs were reviewed in OIG’s analysis. OIG selected 11 aging
management programs for its content analysis and each of these 11 aging management programs were
reviewed for each sampled plant for consistency. As a result, some aging management programs did not
apply to a plant, and in such cases OIG did not create a data point for that plant. Moreover, OIG
acknowledges the possibility that aging management programs not reviewed could have scored differently
than the results indicated in OIG’s report.
                                                    45
                                                           Audit of NRC’s License Renewal Program



                           Table 2
Summary of OIG Analysis of Report Documentation for the GALL
           Operating Experience Program Element

                                 LRA a                    Data Points
    Application                   Date      Total      Green    Yellow             Red
    Vermont Yankee               2006        12          0        12                 0
    Oyster Creek                 2005        40          0        34                 6
    Palisades                    2005        42          4        29                 9
    Monticello                   2005        28          1        23                 4
    Millstone                    2004        46          0        34                12
    Browns Ferry                 2004        40          1        22                17
    Brunswick                    2004        42          2        30                10
    Point Beach                  2004        38          2        30                 6
    D.C. Cook                    2003        50          1        37                12
    Dresden/Quad Cities          2003        42          0        11                31
    Ginna                        2002        42          0         8                34
    St. Lucie                    2001        20          0        10                10
    Turkey Point                 2000        16          0         8                 8
    Total                                    458        11       288               159
    Percent                                 100%       2.4%     62.9%             34.7%

      Source: OIG analysis of NRC license renewal audit, inspection, and safety
                                                                b
      evaluation reports; and of licensee renewal applications.

      Notes:

      a.   License Renewal Application.
      b.   The number of data points by application varies owing to
           applicability of individual aging management programs. Some of
           the older applications pre-date the DLR audit function, and there
           was no inspection report or safety evaluation report yet available for
           Vermont Yankee at the time of OIG’s analysis.

      Table 2 provides subjective “red,” “yellow,” and “green” ratings,
      which reflect the extent to which review methodology is disclosed
      and staff conclusions are supported in the reports.

      ¾ A red rating indicates, for an aging management program
        reviewed by NRC, that there was no mention of review
        methodology or no specific support for the staff’s conclusions in
        the audit, inspection, or safety evaluation reports.

      ¾ A yellow rating indicates, for an aging management program
        reviewed by NRC, that the audit, inspection, or safety evaluation
        reports cited anecdotal information provided by the licensee or

                                           46
                                     Audit of NRC’s License Renewal Program



   restated language from the license renewal application to
   support staff conclusions. A yellow rating also indicates that the
   methodology reported was limited to reviewing the license
   renewal application and interviewing licensee personnel, or to
   reviewing anecdotal information provided by the licensee.

¾ A green rating indicates, for an NRC-reviewed aging
  management program, that the audit, inspection, or safety
  evaluation reports provided details regarding the staff’s review
  methodology beyond a simple review of the license renewal
  application or anecdotal information provided by the licensee.
  The green rating also indicates that the staff provided detailed
  and independent support for their conclusions in the report.

OIG conducted additional analysis of the yellow data points to
determine how closely the application information that was restated
in the license renewal reports resembled the original information
provided in the applicable license renewal application. OIG found
that 191 of the 288 yellow data points, or 41.7 percent of the total
458 data points, were identical or nearly identical to the information
provided in the license renewal application. Examples of original
license renewal application text being repeated in an NRC
document with no or few clues to indicate to the reader that it is
repeated prose are provided in Appendix D.




                          47
                          Audit of NRC’s License Renewal Program




[Page intentionally left blank.]




              48
                                                                             Audit of NRC’s License Renewal Program


                                                                                                                Appendix D


EXAMPLES OF LICENSE RENEWAL APPLICATION TEXT
REPEATED IN NRC DOCUMENTS

Original License Renewal Application Text                        NRC License Renewal Report Text
Operating experience of Flow-Accelerated Corrosion aging         Operating experience of the Flow-Accelerated Corrosion
management program activities has shown that the                 Program activities shows that the program can determine
program can determine susceptible locations for flow             susceptible locations for Flow-Accelerated Corrosion,
accelerated corrosion, predict the component degradation,        predict the component degradation, and detect the wall
and detect the wall thinning in piping, valves, and              thinning in piping, valves, and feedwater heater shells due
Feedwater Heater shells due to flow-accelerated corrosion.       to Flow-Accelerated Corrosion. In addition, the program
In addition, the program provides for reevaluation, repair or    provides for reevaluation, repair, or replacement for
replacement for locations where calculations indicate an         locations where calculations indicate an area will reach
area will reach minimum allowable thickness before the           minimum allowable thickness before the next inspection.
next inspection. Periodic self-assessments of the program        Periodic self-assessments of the program have been
have been performed which have identified opportunities          performed which have identified opportunities for program
                                                  a                                             b
for program improvements. (Oyster Creek LRA , p. B-41.)          improvements. (NRC’s SER with Open Items for Oyster
                                                                 Creek, p. 3-14.)
The OE review shows that the BSEP Bolting Integrity              The applicant also states that the operating experience
Program is continually upgraded based on industry                review shows that its bolting integrity program is continually
experience, research, and routine program performance.           upgraded based on industry experience, research, and
The Program, through its continual improvement, assures          routine program performance. The program, through its
the capability of mechanical bolting to support the safe         continual improvement, assures the capability of
operation of BSEP throughout the extended period of              mechanical bolting to support the safe operation of BSEP
operation. (Brunswick LRA, p. B-24)                              throughout the extended period of operation. (NRC’s Audit
                                                                 Report for Brunswick, p. 39)
The fire water system parameters are monitored, tested           In LRA Section B.2.1.24, the applicant stated that the fire
and piping and component evaluations are performed to            water system parameters are monitored and tested, and
ensure that the system maintains its intended function.          that piping and component evaluations are performed to
Browns Ferry Fire Water System operating experience              ensure that the system maintains its intended function. The
indicates a trend of piping degradation, such as leaks,          BFN Fire Water System operating experience indicates a
general corrosion, biofouling, etc. Piping is being replaced,    trend of piping degradation, such as leaks, general
as required, per corrective actions of the inspection and        corrosion, and biofouling, etc. Piping is being replaced, as
testing activities. (Browns Ferry LRA, p. B-76)                  required, in accordance with corrective actions of the
                                                                 inspection and testing activities. (NRC’s SER for Browns
                                                                 Ferry, p. 3-70)
                                                                                                     c
A review of operating experience pertaining to the Oil           The applicant states in CNP AMP B.1.23, for the
Analysis Program determined that program enhancements            operating experience program element, that a review of
have been made based on industry and plant-specific              operating experience pertaining to this AMP determined
operating experience. For example, the potential for             that program enhancements have been made based on
possible incompatibility between emergency diesel                industry and plant-specific operating experience. For
generator fuel oil and lube oil identified at Calvert Cliffs     example, the potential for possible incompatibility between
Nuclear Power Plant was evaluated and a program change           emergency diesel generator fuel oil and lube oil identified at
was made to ensure the problem was addressed at CNP.             another nuclear power plant was evaluated and a program
The review of condition reports indicates that the program       change was made to ensure the problem was addressed.
has detected conditions at levels below which aging              The review of condition reports indicates that the program
degradation is expected to occur. (D.C. Cook LRA, p. B-          has detected conditions at levels below which aging
77)                                                              degradation is expected to occur. (NRC’s Audit Report for
                                                                 D.C. Cook, p. 68)

  Source: OIG analysis of NRC license renewal audit, inspection, and safety evaluation reports; and of license renewal
  applications.

  Notes:

  a.    license renewal application
  b.    safety evaluation report
  c.    aging management program



                                                                49
                         Audit of NRC’s License Renewal Program




[Page intentionally left blank.]




             50
                              Audit of NRC’s License Renewal Program


                                                        Appendix E
FORMAL AGENCY COMMENTS




                         51
     Audit of NRC’s License Renewal Program




52
     Audit of NRC’s License Renewal Program




53
                          Audit of NRC’s License Renewal Program




[Page intentionally left blank.]




              54
                                                Audit of NRC’s License Renewal Program


                                                                          Appendix F

OIG ANALYSIS OF AGENCY COMMENTS
        On May 8, 2007, OIG issued its draft report to the Executive
        Director for Operations. OIG subsequently met with managers from
        the Division of License Renewal and the Office of the General
        Counsel to address specific issues and concerns needing further
        clarification and/or explanation. On May 24, 2007, OIG discussed
        its draft report with agency senior executives. Subsequent to that
        meeting, NRC provided informal comments on the draft report for
        OIG’s consideration. On July 6, 2007, the Deputy Executive
        Director for Reactor Programs provided a formal response to this
        report in which the agency disagreed with OIG’s finding regarding
        applicability of the backfit rule to license renewals applicants (see
        Appendix E). OIG’s analysis of the agency’s response is as
        follows:

        The staff’s position on backfit applicability to license renewal is
        addressed as it pertains to (1) holders of renewed licenses and (2)
        license renewal applicants. As discussed below, OIG agrees in
        part with the agency’s position that under certain circumstances
        backfitting does not apply. However, as reflected in Figure 4, OIG
        disagrees with the agency’s position regarding applicability of the
        backfit rule to license renewal applicants.

                                       Figure 4
                      Application of Backfit to License Renewal

                                         Holders of Renewed Licenses
              License Renewal
                 Applicants              NRC staff and OIG agree that the
                                         Backfit Rule Does Not Apply, per 10
                                         CFR 54.37(b)*, to Newly Identified
         OIG believes the Backfit
                                         SSCs subject to aging management
         Rule Does Apply to New or       or time-limited aging analysis
         Different Staff Positions
         affecting interpretations of
                                         Holders of Renewed Licenses
         license renewal. NRC staff
         disagrees.
                                         NRC staff and OIG agree that the
                                         Backfit Rule Backfit Rule Does
                                         Apply to New or Different Staff
                                         Positions affecting SSCs previously
                                         within the scope of license renewal


                                    55
                                                                     Audit of NRC’s License Renewal Program


                     *10 CFR 54.37(b) has provided a specific exception from backfitting requirements for
                     holders of renewed licenses, but only regarding “newly” identified SSCs subject to aging
                     or time-limited aging analysis.

                     Figure 4 demonstrates the applicability of the Backfit Rule only as
                     the Rule applies to staff positions regarding license renewal
                     interpretations.

                     Holders of Renewed Licenses

                     OIG agrees with the staff’s position that 10 CFR 50.109,
                     “Backfitting,” does not apply to license renewal (for holders of
                     renewed licenses) with respect to new structures, systems or
                     components (SSC) brought within the scope of the license renewal
                     rule as required by 10 CFR 54.37(b). OIG also concurs with the
                     staff’s acknowledgement that the backfit rule does generally apply
                     for SSCs that were or should have been reviewed during the scope
                     of license renewal review. [emphasis added] However, the agency
                     does not have a process to identify whether ISGs address new
                     SSCs or those previously within the scope of license renewal
                     reviews. As a result, there is no documented means to determine
                     whether ISGs have met the provisions in 10 CFR 54.37(b) and
                     thereby not subject to backfitting.

                     License Renewal Applicants

                     Again citing 10 CFR 54.37(b), the staff maintains that the backfitting
                     rule does not apply to license renewal applicants. In support of this
                     interpretation, the staff references a 1995 Commission SOC
                     published with promulgation of the License Renewal Rule. The
                     staff repeatedly told OIG that the 1995 SOC is the statement of the
                     Commission’s intent which sustains the staff’s current position on
                     the continued non-applicability of the backfit rule to license renewal
                     applicants.

                     In OIG’s opinion, the plain language of the backfit regulation states
                     that the backfit rule is applicable to holders of an operating license,
                     which by default includes applicants seeking a renewed license.26
                     There is no exception in the backfit rule suspending applicability of
                     the rule to subject matter related to a license renewal application


26
     10 CFR 50.109(a)(1)(iii).

                                                       56
                                                                 Audit of NRC’s License Renewal Program



                   nor is there any provision in the License Renewal Rule indicating
                   that backfitting does not apply to “applicants.” Consequently, the
                   sole regulatory basis for the staff’s position that backfitting does not
                   apply to applicants is the 1995 SOC.

                   OIG notes that the SOC does include some discussion of the
                   Commission’s rationale regarding backfitting and the license
                   renewal regulation. This discussion included the following:

                            “There are no licensees currently holding renewed nuclear
                            power plant operating licenses who would be affected by this
                            rule. No applications for license renewal have been
                            docketed. It is also unlikely that any license renewal
                            applications will be submitted before this rule becomes
                            effective.”27

                   OIG’s assessment of the SOC is that the Commission based its
                   1995 position on backfitting, at least in part, on the practical reality
                   that application of the backfit rule to new staff positions on license
                   renewal made no sense at a time when there were no foreseeable
                   license renewal applicants, much less current license renewal
                   applicants or holders of renewed licenses. In OIG’s opinion, it
                   would have served no valid regulatory purpose to require backfitting
                   at that time as there were no affected applicants, potential
                   applicants, or holders of renewed licenses. However, the
                   Commission’s position in the SOC is 12 years old.

                   The Commission’s membership and the underlying circumstances
                   supporting the 1995 position have significantly changed.
                   Specifically, at the time of this report, there are 48 holders of
                   renewed licenses, eight current license renewal applicants, and the
                   NRC expects approximately 23 new applicants through 2013.
                   Within the current environment, applicants, potential applicants,
                   and holders of renewed licenses all may be affected by new staff
                   positions regarding license renewal. Therefore, the staff’s
                   continued reliance on the 1995 SOC regarding the application of




27
     Volume 60, Federal Register, at 22491, Page 40, 2nd Paragraph.

                                                    57
                                     Audit of NRC’s License Renewal Program



backfitting to license applicants is questionable. As a result, OIG is
recommending that the current Commission affirm or modify the
1995 Statement of Considerations position regarding the
applicability of the backfit rule to license renewal applicants.




                          58
